                     Closeout of M91020006
On February 20, 1991, an anonymous alle ation was brought to our
                                1-4
attention in a letter received by                AIG, in a green




The anonymous informant suggested that the proposal
(which had been submitted to OIG in 1990) be reviewed by OIG due to
(1) "a number of suspicious aspects of the funding mechanism"; (2)
flcollusionbetween the funding division and the awarded institution
to promote the interests of the funding divisionf1;(3) "public
presentations b    y staff at n a t i o n a e t i n g s 1 l; and (4) the
attached "agenda item [involving                       which] strongly
suggests that k    n    d the fundic division ?e         continuing to
operate in collusion^.
After careful review of the award j            a   c    k    e   t OIG
concluded that:
--  Regarding the first and second allegations, OIG found neither
flsuspicious aspects of the funding mechanismlf nor "collusion
between the funding division and awarded institution to promote the
interests of the funding divisionN that have occurred in evaluating        I
the proposal, awarding it or administering the award. An external
review of the proposal by four university experts had resulted in
an average E/VG rating. There was a thorough review analysis by
the NSF cognizant program officer. None of the subjects took part
in the review and/or evaluation of the proposal.
--   We found no evidence to support the third allegation that
participation of    staff at n a t i o n a l meetings was wrongful.
NSF's Conflict-of-Interests Rules and Standards of Conduct
Regulations Manual 15, Section 683 -35 specifies, in part, "Nor,
ordinarily, should you chair a session or give a paper except to
describe NSF programs or NSF needsv.            According to the
documentation in the award jacket, the-      staff participated in
--   Regarding the fourth allegation of continuous ncollusionN,it
was apparent that the participation in the conference of one
subject the chairperson of -committee
w       h      o was also a member of the 0 Advisory Committee
 Involved merely given an informational report on the success of the
 conference.
The allegation provided no evidence, and OIG found none, that NSF
acted improperly in evaluating the proposal and granting the award.
Also, OIG found that, in executing the grant, the awardee did no
wrongdoing and that NSF staff participation was in compliance with
NSF regulations.
OIG found no basis for the anonymous allegations of wrongdoing and
is closing this matter.




CC:   Inspector General (IG)
      Assistant IG for Oversight
